September 2006
Report No. 06-018


Response to Privacy Program
Information Request in OMB’s Fiscal
Year 2006 Reporting Instructions for
FISMA and Agency Privacy
Management




             AUDIT REPORT
                                                                                                    Report No. 06-018
                                                                                                      September 2006



                                                  Response to Privacy Program Information Request
                                                  in OMB’s Fiscal Year 2006 Reporting Instructions
                                                  for FISMA and Agency Privacy Management
Background and Purpose of                         Results of Audit
Audit
                                                  KPMG reported that the FDIC has taken a number of actions to
A number of federal statutes, policies, and       protect IIF since the passage of the Privacy Act of 1974 and
guidelines are aimed at protecting the            continually enhance the corporate privacy protection program,
confidentiality, integrity, and availability of   policies, and procedures. Such recent actions include strengthening
information in an identifiable form (IIF)
from unauthorized use, access, disclosure,
                                                  controls related to IIF and implementing mandatory Web-based
or sharing and protecting associated              privacy training to promote Privacy Act awareness among FDIC
information systems from unauthorized             employees and contractor personnel. In addition, the FDIC has
access, modification, disruption, or              identified 46 systems containing IIF and performed required
destruction. Key federal statutes include         Privacy Impact Assessments (PIA) for most of those systems.
the Privacy Act of 1974; section 208 of the
E-Government Act of 2002; and section             These actions were positive; however, the FDIC could further
522 of the Transportation, Treasury,
Independent Agencies, and General                 strengthen its privacy program by completing ongoing efforts to:
Government Appropriations Act, 2005,
hereafter referred to as section 522.                 •   monitor and enforce annual privacy awareness training
                                                          requirements and formalize a privacy training program to
The Federal Information Security                          ensure individuals in trusted roles receive job-specific
Management Act of 2002 (FISMA) directs                    training;
federal agencies to have an annual
independent evaluation performed of their
                                                      •   implement measures to ensure technologies used to collect,
information security program and practices                use, store, and disclose IIF allow for continuous auditing of
and to report the results of the evaluation to            compliance with stated privacy policies and practices as
the Office of Management and Budget                       required by section 522; and
(OMB), the Comptroller General, and                   •   establish and implement a formal plan of action and
various congressional committees. On                      milestones to track privacy program deficiencies such as
July 7, 2006, the OMB issued a
memorandum entitled, FY 2006 Reporting
                                                          those identified in PIAs and required privacy reviews.
Instructions for the Federal Information
Security Management Act and Agency                In addition, the Corporation should determine when it will submit
Privacy Management. In response to                an annual report to the Congress on its privacy protection activities,
OMB’s request for privacy program                 including complaints of privacy violations, internal controls, and
information, the FDIC Office of Inspector         other relevant matters as discussed in section 522.
General contracted with KPMG LLP
(KPMG) to audit and report on the privacy
management areas addressed in the OMB             Recommendations and Management Response
memorandum.
                                                  KPMG made no recommendations in the report. However, the
The objective of this audit was to determine      Privacy Program Manager provided informal comments on a draft
the current status of the FDIC’s efforts to       version of this report, which KPMG considered and incorporated
implement a corporate-wide privacy                into the report, as appropriate. Under contract with the OIG,
protection program. While KPMG did not
evaluate the FDIC’s privacy program as            KPMG will perform a more in-depth review, as required by section
part of this audit, the report provides           522, of the FDIC’s use of IIF and related privacy protection policy
information on the program and related            and procedures, and the firm will make appropriate
activities.                                       recommendations, if necessary, at that time.


To view the full report, go to
www.fdicig.gov/2006reports.asp
Response to Privacy Program Information Request in
 OMB’s Fiscal Year 2006 Reporting Instructions for
     FISMA and Agency Privacy Management
               Report Number 06-018

                  Prepared for the
        Federal Deposit Insurance Corporation
             Office of Inspector General

                   FINAL REPORT




                          Prepared by:
                           KPMG LLP
                Advisory Services – Federal Practice
                       2001 M Street, NW
                     Washington, DC 20036
                         (202) 533-3000
                           TABLE OF CONTENTS
INTRODUCTION                                                     2

BACKGROUND                                                       3

RESULTS OF AUDIT                                                 3

STATUS OF THE FDIC’S PRIVACY PROTECTION POLICIES AND             4
PROCEDURES
  Policies and Procedures                                        4
  Awareness and Training                                         5
  Privacy Reviews                                                5
  Privacy Impact Assessments and Notice Requirements             6
  Persistent Tracking                                            6
  Internal Oversight                                             7
  OIG Coordination                                               7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                    9

APPENDIX II: PRIVACY-RELATED LAWS, POLICIES, AND GUIDELINES     11


ACRONYMS


CPO          Chief Privacy Officer
FDIC         Federal Deposit Insurance Corporation
FISMA        Federal Information Security Management Act
FOIA         Freedom of Information Act
GAGAS        Generally Accepted Government Auditing Standards
IG           Inspector General
IIF          Information in an Identifiable Form
ISM          Information Security Manager
KPMG         KPMG LLP
OIG          Office of Inspector General
OMB          Office of Management and Budget
PIA          Privacy Impact Assessment
POA&M        Plan of Action and Milestones
SORN         System of Records Notice
SSN          Social Security Number
INTRODUCTION

On July 17, 2006, the Office of Management and Budget (OMB) issued Memorandum
M-06-20 entitled, FY 2006 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management. In response to OMB’s request for privacy
program information, the Federal Deposit Insurance Corporation (FDIC) Office of Inspector
General (OIG) contracted with KPMG LLP (KPMG) to conduct a performance audit and report
on the privacy management areas addressed in Section D of the OMB memorandum. This is
the second year that KPMG has supported the FDIC OIG in this audit work. KPMG conducted
its performance audit in accordance with generally accepted government auditing standards
(GAGAS) issued by the Comptroller General of the United States.

The objective of this audit was to determine the current status of the FDIC’s efforts to
implement a corporate-wide privacy program. While KPMG did not evaluate the effectiveness
of the FDIC’s privacy program as part of this audit, this report provides information on the
program and related activities. Reports on (1) the FDIC OIG responses to specific security-
related questions in the referenced OMB memorandum and (2) the independent security
evaluation required by the Federal Information Security Management Act of 2002 (FISMA),
will be provided under separate cover.1 Those two reports and this report are intended to fulfill
the FDIC OIG’s reporting responsibilities under FISMA and related OMB guidance. In
addition, further information on the effectiveness of the FDIC’s privacy program will be
provided as part of the independent, third-party review required under section 522 of the
Transportation, Treasury, Independent Agencies, and General Government Appropriations Act,
2005, hereafter referred to as section 522. The FDIC OIG also contracted with KPMG to fulfill
the review requirements of section 522.

Appendix I describes our objective, scope, and methodology. Appendix II contains brief
descriptions of key privacy-related laws, policies, and guidelines and their applicability to the
FDIC.

The FDIC’s Privacy Program Manager provided informal comments in response to a draft of
this report. KPMG considered and incorporated the comments, as appropriate, into the report.
In general, the Privacy Program Manager agreed with KPMG’s observations for strengthening
the FDIC’s privacy program.




1
 Responses to Security-Related Questions in FY 2006 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (FDIC-OIG Report No. 06-019), dated September 2006; and
Independent Evaluation of the FDIC’s Information Security Program – 2006 (FDIC-OIG Report No. 06-022), dated
September 2006.




                                                        2
BACKGROUND

The protection of sensitive information has never been more important or more threatened.
The increasing use of computers to store and retrieve personal data about individuals has
highlighted the government’s duty to balance the necessity of maintaining information about
individuals with the rights of individuals to be protected against unwarranted invasions of their
privacy. In addition, recent high-profile incidents involving the potential compromise or loss
of sensitive personal information further reinforce the need for federal agencies to implement
measures to protect sensitive information entrusted to them.

A number of federal statutes, policies, and guidelines are aimed at protecting information in an
identifiable form (IIF)2 and associated information systems from unauthorized access, use,
disclosure, disruption, modification, or destruction, as discussed in Appendix II. One of the
key policies is OMB Circular A-130, Management of Federal Information Resources, and its
appendices.


RESULTS OF AUDIT

The FDIC has taken a number of actions to protect IIF since the passage of the Privacy Act of
1974 and continually enhanced the corporate privacy program, policies, and procedures. Such
actions include strengthening controls related to IIF and implementing mandatory Web-based
privacy training to promote Privacy Act awareness among corporate employees and contractor
personnel. In addition, the FDIC has identified 46 systems containing IIF and completed
required Privacy Impact Assessments (PIAs)3 for 43 of those systems. These actions were
positive; however, the FDIC could further strengthen its privacy program by completing
ongoing efforts to:

    •    monitor and enforce annual privacy awareness training requirements and formalize a
         privacy training program to ensure individuals in trusted roles receive job-specific
         training;
    •    implement measures to ensure technologies used to collect, use, store, and disclose IIF
         allow for continuous auditing of compliance with stated privacy policies and practices
         as required by section 522;


2
  OMB defines IIF as information in a system or on-line collection that directly identifies an individual (e.g., name,
address, Social Security number (SSN) or other identifying code, telephone number, e-mail address, etc.) or by which
an agency intends to identify specific individuals in conjunction with other data elements.
3
  A PIA is an analysis of how information is handled to: (1) ensure handling conforms to applicable legal, regulatory,
and policy requirements regarding privacy; (2) determine the risks and effects of collecting, maintaining, and
disseminating IIF; and (3) examine and evaluate protections and alternative processes for handling information to
mitigate potential privacy risks. A PIA is required by the E-Government Act of 2002 (as implemented by OMB
Memorandum M-03-22) to ensure privacy protections, and Privacy Act requirements are considered when developing
or procuring new or modified information technology that contains IIF.




                                                          3
    •    establish and implement a formal plan of action and milestones (POA&M) to track
         privacy management deficiencies such as those identified in PIAs and required privacy
         reviews; and
    •    submit an annual report to the Congress consistent with the provisions of section 522,
         addressing privacy protection activities, including complaints of privacy violations,
         internal controls, and other relevant matters.

KPMG is not making recommendations in this report. The FDIC OIG also contracted with
KPMG to perform a privacy review, as required by section 522, of the FDIC’s use of IIF and
related FDIC privacy and data protection policies and procedures, and the firm will make
appropriate recommendations, if necessary, at that time.


STATUS OF THE FDIC’S PRIVACY PROTECTION POLICIES AND PROCEDURES

The FDIC recognizes the need to take additional steps to implement a more effective privacy
program. Since the 2005 OIG privacy evaluation,4 the FDIC continues to develop and
strengthen its privacy program, policies, and procedures. KPMG’s review indicated that the
FDIC has made progress by identifying computer applications processing IIF, establishing
corporate privacy awareness training, conducting PIAs and required Privacy Act-related
reviews, and satisfying records notification requirements. Key privacy initiatives, addressing
areas in Section D of OMB Memorandum M-06-20, are detailed below.

Policies and Procedures. In accordance with section 522, the FDIC’s Chief Privacy Officer
(CPO) has primary responsibility for the Corporation’s privacy protection policy and ensuring
that IIF and related information systems are protected.

The FDIC’s privacy program includes policies and procedures to manage and protect IIF. For
example, the FDIC’s PIA guide and template assist system owners in completing PIAs, if they
are necessary based on the presence of IIF. Further, the FDIC has strengthened and revised its
procedures related to the overall sensitivity of FDIC computer applications by using the
Application Security Assessment,5 which includes questions to aid identifying any IIF in an
application. During FY 2006, the FDIC identified applications containing IIF and developed a
phased approach for performing PIAs. As of September 20, 2006, the FDIC had completed
PIAs for 43 out of 46 applications identified as containing IIF. In addition, the FDIC made




4
  Response to Privacy Program Information Request in OMB’s Fiscal Year 2005 Reporting Instructions for FISMA
and Agency Privacy Management (FDIC-OIG Report No. 05-033), dated September 16, 2005.
5
  The FDIC previously used the Sensitivity Assessment Questionnaire to determine the overall sensitivity of an FDIC
system or application. Certain responses generate specific security control recommendations, including the necessity
to complete a PIA.




                                                          4
 sanitized versions of all but one6 of the completed PIAs publicly available on the FDIC’s
Privacy Program Web site in accordance with the E-Government Act of 2002 requirements.
Furthermore, in response to OMB’s Memorandum M-06-16, Protection of Sensitive Agency
Information, dated June 23, 2006, the FDIC is drafting a policy that requires encryption of
production data stored at a remote location, authorization for the duplication of IIF information,
and disposal of any copies of privacy information within 90 days of the duplication. The FDIC
has also acted to ensure its remote authentication and “time-out” functions meet OMB
requirements.

Awareness and Training. In October 2005, the FDIC implemented corporate-wide privacy
awareness training that included coverage of privacy laws, regulations, and policies. The
completion of this Web-based course is mandatory for all FDIC employees and contractors.
The FDIC tracks training completion using a security awareness and training database.
However, the FDIC could strengthen monitoring and enforcing compliance with the privacy
awareness training requirements. During the 12 months ended June 2006, the FDIC had
created 983 new user (employee and contractor) accounts. KPMG sampled 45 such user
accounts and found that 9 of those users had not completed the required privacy awareness
training. The FDIC attributed the lack of compliance to a delay between the privacy awareness
training completion deadline7 and the time divisional Information Security Managers (ISM)
could access privacy training compliance reports to perform necessary follow-up. The FDIC is
addressing this issue, and ISMs have been reminded to comply with the awareness training
requirement.

In addition, the FDIC provides one-on-one or team-specific privacy training on an ad-hoc basis.
However, this type of training has not been incorporated into a formal privacy training
program. The Privacy Program Manager indicated that the Corporation has undertaken an
initiative with the Corporate University to provide specific privacy training. A formal job-
specific training program would help to ensure that FDIC personnel and contractors directly
involved in administering IIF or information systems processing IIF are familiar with
information privacy laws and regulations applicable to their specific job duties and
responsibilities and help prevent inappropriate access and disclosure.

Privacy Reviews. The FDIC has completed all reviews of FDIC compliance with various
provisions of the Privacy Act as required by OMB Circular A-130, Appendix 1, Federal
Agency Responsibilities for Maintaining Records About Individuals.8 These reviews focus

6
  A waiver from the public posting requirement was requested for one system due to the sensitivity of the data in the
system, as well as business needs to ensure confidentiality of the system. Such a waiver was consistent with the
E-Government Act and OMB’s implementing guidance.
7
  The privacy training was announced by global e-mail on October 11, 2005 and included a mandatory completion date
of October 28, 2005.
8
  OMB Circular A-130, Appendix I, requires agencies to conduct reviews of the following topics, at the indicated
frequency: Section (m) Contract, Recordkeeping Practices, Privacy Act Training, Violations, and System of Records
Notices every 2 years; Routine Use Disclosures and Exemption of System of Records reviews every 4 years; and
Matching Programs annually.




                                                         5
attention on particular Privacy Act requirements as indicated by the following examples from
the circular:

         •   Recordkeeping Practices. Biennially review agency recordkeeping and disposal
             policies and practices in order to assure compliance with the Privacy Act, paying
             particular attention to the maintenance of automated records.
         •   Privacy Act Training. Biennially review agency training practices in order to
             ensure that all agency personnel are familiar with the requirements of the Act, the
             agency's implementing regulation, and any special requirements of their specific
             jobs.

Privacy Impact Assessments and Notice Requirements. The FDIC has made significant
progress in identifying systems containing IIF. For example, the FDIC completed an initial
exercise in September 2005 to identify computer applications with Social Security number
(SSN) information. Following the completion of this exercise, the FDIC conducted another
review to identify systems with any additional IIF data. The FDIC identified 46 applications
containing IIF and developed a phased approach for performing the associated PIAs. As of
September 20, 2006, the FDIC had completed PIAs for 43 of these applications. The PIAs for
the remaining three applications containing IIF are scheduled for completion by December 31,
2006. Additionally, the FDIC has published 24 System of Records9 Notices (SORN) on the
FDIC Web site and in the Federal Register, as required by the Privacy Act, and is proposing
4 new FDIC Privacy Act SORNs to replace the outdated Unofficial Personnel Records notice.10
The SORNs help to ensure that information about FDIC maintenance and use of records
containing IIF is publicly disclosed. The FDIC has also included its privacy policies on its
public-facing Web site in furtherance of its disclosure activities.

Persistent Tracking. The FDIC continues to annually review the use of persistent tracking
technologies, also known as Web site cookies. There are two types of Web site cookies,
session and persistent cookies. Session cookies are temporary and are erased when a user
closes the Web browser, whereas persistent cookies remain on a user’s computer until the user
erases them. The FDIC uses persistent cookies only as part of the Statistics on Depository
Institutions application. The FDIC has properly obtained agency-head approval to collect this
information and informs visitors of its use. Additionally, the FDIC posts Privacy Notices on all
public Web sites and on any Web page where the FDIC uses session cookies to collect
information consistent with OMB guidance.11



9
  The Privacy Act of 1974 states, “The term system of records means a group of any records under the control of any
agency from which information is retrieved by the name of the individual or by some identifying number, symbol, or
other identifying particular assigned to the individual.”
10
   The Web site contains only the name of the system and indicates that it is to be revised at a later time.
11
   OMB Memorandum M-03-22, Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002,
dated September 26, 2003, indicates that where there is a compelling need to use persistent tracking technology, the
agency must post clear notice of its privacy policy.




                                                         6
Internal Oversight. In addition to performing the privacy reviews discussed earlier to comply
with requirements in OMB Circular A-130, Appendix I, the FDIC conducts internal reviews of
compliance with information privacy laws and regulations. For example, in November 2005,
the FDIC conducted a review of several published directives that contain privacy references
and added or revised content, language, and references, as necessary. Continuing these reviews
will help the FDIC to ensure compliance with current privacy requirements, such as OMB’s
memorandum M-06-16, Protection of Sensitive Agency Information, dated June 23, 2006,
which emphasized critical safeguards for protecting privacy information on mobile computers
and devices. The memorandum requires an agency review of these safeguards.

The FDIC needs to implement measures that would provide assurance that the technologies
used to collect, use, store, and disclose IIF allow for continuous auditing of compliance with
stated privacy policies and practices as required by section 522 and discussed in OMB
Memorandum M-06-20. The need for continuous auditing of systems security controls was
also identified in the FY 2006 independent evaluation of the FDIC’s security program.12 The
Privacy Program Manager indicated that a DIT project team is evaluating technologies to
provide continuous monitoring. Continuous monitoring of compliance controls will provide
the FDIC with ongoing awareness and periodic compliance metrics regarding the collection,
use, and distribution of IIF. Additionally, the FDIC needs to complete a comprehensive and
formal POA&M to track privacy program compliance deficiencies. The Privacy Program
Manager indicated that corrective actions related to audits would be tracked through the
corporate audit finding tracking system and non-audit related initiatives through the established
Privacy Program monthly status report. However, the Privacy Program monthly status report
was not always completed and did not consistently include required resources or track items
through completion. A formal POA&M for the privacy program will enhance the FDIC’s
ability to identify, assess, prioritize, and monitor the progress of corrective efforts for identified
privacy weaknesses, including those contained in PIAs and privacy reviews.

The FDIC has determined that the Corporation needs to report annually to Congress regarding
activities affecting privacy as required by section 522. The FDIC Privacy Program Manager
indicated the FDIC plans to comply with this requirement by submitting such a report in
FY 2006. KPMG intends to follow up in the upcoming section 522 compliance audit to
determine the status on the FDIC’s preparation of this report.

OIG Coordination. The FDIC coordinated with the OIG on privacy program oversight by
providing the OIG with a compilation of FDIC privacy and data protection policies and
procedures, a summary of the FDIC use of IIF, and verification of the intent to comply with
both federal and corporate agency policies and procedures. Section 522 required the FDIC to
provide a report containing this information to the Inspector General; the report was received
on September 15, 2005.
12
  In the FY 2006 Independent Evaluation of the FDIC’s Information Security Program, (FDIC-OIG Report
No. 06-22), dated September 2006, the OIG suggested that the FDIC complete its security risk management
methodology to define procedures for performing continuous monitoring of system security controls after system
accreditation.




                                                         7
KPMG is making no recommendations in this report. The FDIC OIG has contracted with
KPMG to perform a privacy review, designed to meet the various requirements of section 522,
of the FDIC’s use of IIF and related privacy protection policy and procedures, and the firm will
make appropriate recommendations, if necessary, at that time.




                                               8
                                                                                  APPENDIX I
                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of KPMG’s performance audit was to determine the current status of the FDIC’s
efforts to implement a corporate-wide privacy program. The audit focused on privacy program
areas addressed in Section D of OMB’s July 17, 2006 memorandum M-06-20 entitled, FY 2006
Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management. As part of the audit work, KPMG reviewed prior OIG reports (listed
below) related to privacy. The results of this audit support the OIG in fulfilling its evaluation
and reporting responsibilities under FISMA and M-06-20.

To accomplish the objective, KPMG relied on information-gathering techniques such as
interviewing key FDIC officials with privacy responsibilities; reviewing relevant FDIC
policies, procedures, and documentation; and performing other appropriate audit procedures.
Also, KPMG considered the results from the following OIG reports but did not follow up on
the recommendations in those reports. Such follow-up will be performed as part of the required
review under section 522.

   •   FDIC OIG Report No. 05-033, Response to Privacy Program Information Request in
       OMB’s Fiscal Year 2005 Reporting Instructions for FISMA and Agency Privacy
       Management, dated September 16, 2005. The objective of the audit was to determine
       the current status of the FDIC’s efforts to implement a corporate-wide privacy
       management program. The results of the audit indicated that while the FDIC had taken
       a number of actions to protect IIF, the FDIC needed to complete several ongoing efforts
       to strengthen its privacy program. Such efforts included, among other things, the
       identification of all FDIC-maintained IIF and the establishment of a corporate-wide
       privacy training and education program.

   •   FDIC OIG Report No. 06-005, FDIC Safeguards Over Personal Employee Information,
       dated January 6, 2006. The objective of the evaluation was to evaluate the FDIC's
       policies, procedures, and practices for safeguarding personal employee information in
       hardcopy and electronic form. Based on the results of the evaluation, the FDIC OIG
       noted the FDIC made efforts to enhance its established privacy program in response to
       legislative requirements and breaches of FDIC employee information. However, the
       FDIC OIG issued 15 recommendations to help ensure the FDIC complies fully with
       privacy-related legislation and regulations; identifies personal employee information
       maintained by the FDIC and its contractors that needs to be protected; and implements
       sufficient administrative, physical, and technical controls over such information.

   •   FDIC OIG Report No. 06-016, Controls Over the Disposal of Sensitive FDIC
       Information by Iron Mountain, Inc., dated June 29, 2006. The objective of the audit
       was to determine whether the FDIC has adequate controls for ensuring the secure
       disposal of sensitive information by Iron Mountain for the FDIC's headquarters offices.
       The results of the audit indicated the FDIC established a number of key controls to
       ensure the secure disposal of sensitive information by Iron Mountain. However, the




                                                9
                                                                                 APPENDIX I
       FDIC OIG attributed insufficient contract oversight to several inconsistencies with
       established policy, procedures, and contractual language and issued a total of four
       recommendations.

   •   FDIC OIG Report No. 06-017, DRR’s Protection of Bank Employee and Customer
       Personally Identifiable Information, dated September 15, 2006. The objective of the
       audit was to determine whether DRR adequately protects IIF collected in hardcopy form
       that is maintained as a result of resolution and receivership functions. The FDIC OIG
       reported that the division had not established a Records Management Program that
       defines recordkeeping requirements for the inventory, maintenance, control, and use of
       hardcopy documents.

KPMG did not separately perform procedures to review program performance measures, assess
the FDIC’s compliance with laws and regulations, evaluate the FDIC’s internal control, or
determine that computer-based data were valid and reliable. In addition, KPMG did not design
specific audit procedures to detect fraud; however, throughout the audit, KPMG and the OIG
were sensitive to the potential for fraud, waste, abuse, and mismanagement. KPMG performed
the audit at the FDIC's offices in Arlington, Virginia, during the period June through August
2006 in accordance with GAGAS issued by the Comptroller General of the United States.




                                             10
                                                                                   APPENDIX II

              PRIVACY-RELATED LAWS, POLICIES, AND GUIDELINES

A number of federal statutes, policies, and guidelines are aimed at protecting IIF from
unauthorized use, access, disclosure, or sharing and associated information systems from
unauthorized access, modification, disruption, or destruction. Brief descriptions of key
privacy-related statutes, policies, and guidelines and their applicability to the FDIC follow.

•   The Privacy Act of 1974 imposes various requirements on federal agencies whenever they
    collect, create, maintain, and distribute records (as defined in the Act, and regardless of
    whether they are in hardcopy or electronic format) that can be retrieved by the name of an
    individual or other identifier. One of these requirements is to publish notices in the Federal
    Register that include information such as the categories of records maintained in the agency
    systems, the routine uses of the records, and the manner in which individuals may access
    the information. As a federal agency, the FDIC is subject to the requirements of the Act.

•   The E-Government Act of 2002, section 208, requires agencies to (1) conduct PIAs of
    information technology and collections and, in general, make PIAs publicly available;
    (2) post privacy policies on agency Web sites used by the public; (3) translate privacy
    policies into a machine-readable format; and (4) report annually to the OMB on compliance
    with section 208. The FDIC has determined that section 208 applies to the Corporation.

•   Section 522 of the Transportation, Treasury, Independent Agencies, and General
    Government Appropriations Act, 2005 requires, among other things, that agencies protect
    IIF, designate a CPO, conduct PIAs under appropriate circumstances, report to the Congress
    and agency IG on privacy matters, and provide training to employees on privacy and data
    protection policies. Section 522 also requires that every 2 years, the agency IG contract
    with an independent third party to conduct a review of the agency’s privacy program and
    practices and that the IG issue a report based on that review. Agencies must establish
    comprehensive privacy and data protection procedures by December 2005. The FDIC has
    determined that section 522 applies to the FDIC.

•   OMB Circular No. A-130, Management of Federal Information Resources, Appendix I,
    Federal Agency Responsibilities for Maintaining Records about Individuals, describes
    agency responsibilities for implementing the reporting and publication requirements of the
    Privacy Act of 1974. The FDIC has determined that OMB Circular No. A-130, Appendix I,
    applies to the Corporation. Subsequent OMB policy provides additional information
    regarding agency responsibilities for designating a senior agency official for privacy,
    conducting PIAs, developing privacy policies for Web sites, providing privacy education to
    employees and contractor personnel, and reporting privacy activities.

•   OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions
    of the E-Government Act of 2002, provides information to agencies on implementing the
    privacy provision of the E-Government Act of 2002. The guidance directs agencies to




                                                11
                                                                                APPENDIX II
    conduct reviews of how information about individuals is handled within their agencies
    when they use information technology to collect new information, or when agencies
    develop or buy new information technology systems to handle collections of PII. The FDIC
    has taken steps to implement this memorandum.

•   OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy,
    contains OMB’s request that each executive department and agency identify to OMB the
    senior official who has the overall agency-wide responsibility for information privacy
    issues. The FDIC complied with this request by designating the FDIC Chief Information
    Officer as the Senior Official for Privacy.

•   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information,
    describes responsibilities under law and policy to appropriately safeguard sensitive PII and
    training employees on their responsibilities in this area. OMB requires the senior official
    for privacy to conduct a review of policies and processes and take corrective action as
    appropriate to ensure adequate safeguards to prevent misuse or unauthorized access to PII.
    Any weaknesses found are to be identified in security POA&Ms already required by
    FISMA. Although the level of legal applicability of this memorandum has not been
    determined, the FDIC has taken steps to implement its provisions.

•   OMB Memorandum M-06-16, Protection of Sensitive Agency Information, requires
    departments and agencies to take specific actions to provide for the protection of sensitive
    information. Requirements include the encryption of all data on mobile computers/devices
    that carry sensitive data, two-factor authentication for remote access, “time-out” functions
    for remote access and mobile devices, and the logging of all computer-readable data
    extracts from databases holding sensitive information. Although the level of legal
    applicability of this memorandum has not been determined, the FDIC has taken steps to
    implement its provisions.

•   OMB Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal
    Information Security Management Act and Agency Privacy Management, directs senior
    agency officials for privacy to answer a series of questions about their agency’s privacy
    programs. These questions are based, in part, on agency implementation of the privacy
    provisions of the E-Government Act of 2002. In addition to the questions, the
    memorandum requires the agency officials to report on the results of privacy program
    reviews and identify physical or electronic incidents involving the loss of or unauthorized
    access to PII. The memorandum also requests that agency IGs provide information about
    their agency’s privacy program and related activities, as appropriate, and provide a list of
    any systems that are missing from the agency’s inventory of major information systems.

•   Homeland Security Presidential Directive (Hspd)-12, the Policy for a Common
    Identification Standard for Federal Employees and Contractors. Hspd-12 requires
    agencies to be in compliance with a standard architecture for a common identification




                                                12
                                                                            APPENDIX II
    standard for federal employees and contractors by November 2006. The FDIC is not legally
    bound by this requirement but intends to follow it.

•   FDIC Circular 1031.1, Administration of the Privacy Act, establishes requirements for the
    collection, maintenance, use, and dissemination of records subject to the Privacy Act of
    1974.

•   Division of Information and Technology IT Policy Memorandum, January 24, 2001,
    Cookies in Internet Products, establishes the policy and standard for use of cookies in
    Internet, FDICnet, and extranet-type products developed or deployed by FDIC.




                                              13
